HHS/OIG, Audit -"Review of Condell Medical Center's Controls to Ensure Accuracy of Wage Data
Used for Calculating Inpatient Prospective Payment System Wage Indexes,"(A-05-05-00021)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Condell Medical Center's Controls to Ensure Accuracy of Wage Data Used for Calculating
Inpatient Prospective Payment System Wage Indexes," (A-05-05-00021)
August 29, 2005
Complete
Text of Report is available in PDF format (577 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Condell Medical Center (the hospital) complied
with Medicare regulations and guidance for reporting wage data in its FY 2003 Medicare cost report.  We
found that the hospital did not fully comply with Medicare regulations and guidance for reporting wage
data in its FY 2003 Medicare cost report.  Specifically, the hospital reported wage data that
included: (1) total salaries without related hours in the amount of $34,881; (2) overstated total hours
of 3,322; (3) overstated total hours of 14,488 attributable to excluded cost centers; and (4) understated
wage-related benefit core costs totaling $251,798.  These errors occurred because the hospital
did not sufficiently review and reconcile wage data to ensure that all amounts reported were accurate
and supportable, and in compliance with Medicare regulations and guidance.  We recommended that
the hospital: (1) revise the FY 2003 cost report to reflect the understated salary wage data by $216,917
and overstated hours by 17,810 and (2) strengthen financial reporting controls by implementing procedures
to ensure that the wage data reported on the hospitals Medicare cost report are accurate and supportable,
and in compliance with Medicare regulations and guidance.  The hospital concurred with the findings
presented in the report.